App. 1
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 18-10735
Summary Calendar

CAROL M. KAM,
Plaintiff - Appellant
v.
DALLAS COUNTY; STATE OF TEXAS,
Defendants - Appellees
Appeal from the United States District Court
for the Northern District of Texas
USDC No. 3:18-CV-378

Before STEWART, Chief Judge, and OWEN and OLD­
HAM, Circuit Judges.
PER CURIAM:*
Plaintiff-Appellant Carol M. Kam appeals the dis­
trict court’s dismissal of her claims for lack of subject
matter jurisdiction. We affirm.

* Pursuant to 5th Cir. R. 47.5, the court has determined that
this opinion should not be published and is not precedent except
under the limited circumstances set forth in 5th Cir. R. 47.5.4.

App. 2
I.
In the proceedings below, Kam brought a pro se ac­
tion in federal district court against the State of Texas
and Dallas County upon the conclusion of extended
probate litigation involving two will contest suits aris­
ing from the deaths of her brother and father. The first
will contest suit, as to Kam’s brother’s amended trust,
resulted in a judgment against Kam. The probate court
also found her in violation of the “no contest” provision
in her brother’s trust, resulting in revocation of her
benefits, i.e., her $10,000 inheritance. She was further
assessed with over $226,000 in attorney’s fees and
costs. The second will contest suit, as to Kam’s father’s
will, resulted in a judgment in her favor with an award
of costs.
The relief Kam sought in the federal district court
included: (1) a retrial of the first will contest suit to re­
move the “malicious judgment” entered against her;
(2) her $10,000 inheritance; and (3) reimbursement of
all litigation expenses she had incurred to date. Be­
cause granting relief would require the district court
to reverse the state court judgment entered in one of
the will contest suits, the district court found that it
was divested ofjurisdiction under the Rooker-Feldman
doctrine and dismissed Kam’s claims with prejudice.
II.
We review the district court’s application of the
Rooker-Feldman de novo. See Rl. Cent. R.R. Co. v. Guy,
682 F.3d 381, 390 (5th Cir. 2012).

App. 3
III.
“[The Rooker-Feldman] doctrine directs that fed­
eral district courts lack jurisdiction to entertain collat­
eral attacks on state court judgments.” See Liedtke v.
State Bar of Tex., 18 F.3d 315,317 (5th Cir. 1994). “Fur­
ther, in addition to the precise claims presented to the
state court, Rooker-Feldman prohibits federal court re­
view of claims that are ‘inextricably intertwined’ with
a state court decision.” Burciaga v. Deutsche Bank
Nat’l Trust Co., 871 F.3d 380, 384-85 (5th Cir. 2017)
(quoting Dist. Ct. of Columbia Appeals v. Feldman, 460
U.S. 462, 486-87 (1983)).
On appeal, Kam argues that the State of Texas
and Dallas County: (1) failed to provide her with an
unbiased tribunal; (2) failed to provide her with proper
jurisdictional notice and authority; (3) failed to allow
her to depose certain witnesses; (4) failed to allow her
to provide opposing evidence; (5) failed to provide her
with a judgment based on the evidence presented;
(6) failed to provide her with findings of fact and rea­
sons for judgment; (7) “failed to address the improper
use of the trial court as revenge”; and (8) permitted the
court system to be used in a malicious manner that de­
prived her of her inheritance and placed an unfair fi­
nancial burden on her.
We agree with the district court that the claims
Kam presents and the relief she seeks would require
reversal of one of the state court judgments in the pro­
ceedings below - the judgment in the first will con­
test suit. Consequently, we are barred from reviewing

App. 4
Kam’s claims and find no reversible error in the dis­
trict court’s conclusion that the Rooker-Feldman doc­
trine deprived it of jurisdiction to hear Kam’s claims.1
See Liedtke, 18 F.3d at 317; see also Burciaga, 871 F.3d
at 384-85 (observing that federal courts are prohibited
from reviewing “claims that are ‘inextricably inter­
twined’ with a state court decision”).
IV.
The district court’s judgment dismissing Kam’s
claims is affirmed.

i To the extent, if any, that Kam appeals the district court’s
denial of her motion to amend her complaint, we hold that the
district court did not err in doing so on grounds of futility in that
all of Kam’s proposed amendments were also “inextricably inter­
twined” with the prior state court judgment. See Burciaga, 871
F.3d at 384-85.

App. 5
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION
CAROL M. RAM,

)

Plaintiff,

)
)

VS.

)

DALLAS COUNTY,
ET AL.,
Defendants.

)

CIVIL ACTION NO.
3:18-CV-0378-G (BK)

)
)

ORDER ACCEPTING FINDINGS.
CONCLUSIONS. AND RECOMMENDATION OF
THE UNITED STATES MAGISTRATE JUDGE
(Filed Jun. 12, 2018)
The United States Magistrate Judge made find­
ings, conclusions, and a recommendation in this case.
Plaintiff filed objections, and the court has made a de
novo review of those portions of the proposed findings,
conclusions, and recommendation to which objection
was made. The objections are overruled, and the court
ACCEPTS the findings, conclusions, and recommen­
dation of the United States Magistrate Judge.
Plaintiff’s amended complaint (docket entry 34) is
STRICKEN from the docket, Dallas County’s motion
to dismiss (docket entry 29) is GRANTED, and the
State of Texas’ motion to dismiss (docket entry 24) is
TERMINATED AS MOOT.

App. 7
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION
CAROL M. RAM,

)

Plaintiff,

)

VS.

)
)

DALLAS COUNTY,
ETAL.,

)

CIVIL ACTION NO.
3:18-CV-0378-G (BK)

)

Defendants.

)

JUDGMENT
(Filed Jun. 12, 2018)
The court has entered its order accepting the find­
ings, conclusions, and recommendation of the United
States Magistrate Judge in this case.
It is ORDERED, ADJUDGED and DECREED
that:
1. Plaintiff’s amended complaint (docket entry
34) is STRICKEN from the docket, Dallas County’s
motion to dismiss (docket entry 29) is GRANTED, and
the State of Texas’ motion to dismiss (docket entry 24)
is TERMINATED AS MOOT, and plaintiff’s claims
are DISMISSED without prejudice.
2. The clerk shall transmit a true copy of this
judgment and the order accepting the findings and rec­
ommendation of the United States Magistrate Judge
to all parties.

App. 9
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION
CAROL M. RAM,
Plaintiff,

§
§

v.

§ Civil Action No.
3:18-CV-0378-G-BK

DALLAS COUNTY,
et al.,
Defendants.

FINDINGS, CONCLUSIONS AND
RECOMMENDATION OF THE
UNITED STATES MAGISTRATE JUDGE
(Filed May 29, 2018)
Pursuant to Special Order 3 and 28 U.S.C. § 636(b),
State of Texas’ Motion to Dismiss, Doc. 24, and Dallas
County’s Motion to Dismiss, Doc. 29, have been re­
ferred to the undersigned for a recommended disposi­
tion. For the reasons stated herein, Dallas County’s
motion should be GRANTED IN PART, resulting in
the dismissal of all of Plaintiff’s claims, and the State
of Texas’ motion should be DENIED AS MOOT.

I. BACKGROUND
Plaintiff Carol Kam brings this pro se action
against the State of Texas and Dallas County (the
“County”) (collectively “Defendants”) arising from the
probate litigation that ensued after the deaths of her

App. 10
brother, Robert Kam, and father, Charles Kam (the
“Probate Proceedings”).1
A. Litigation Regarding Robert Kam’s Estate
Plaintiff alleges that in February 2011, after being
diagnosed with pancreatic cancer, Robert created a
trust for his estate, over which Plaintiff’s brother, Da­
vid Kam, was named trustee (the “Original Trust”).
Doc. 3 at 6, 37. Under the terms of the Original Trust,
Plaintiff was to receive a $10,000.00 inheritance. Doc.
3 at 7. Plaintiff further alleges that in March 2011,
Robert’s girlfriend, with the aid of her attorney, David
Pyke (“Attorney Pyke”), made changes to the Original
Trust that were approved by David and Robert (the
“Amended Trust”). Doc. 3 at 8-9. When it was discov­
ered that the provision providing for Plaintiff’s inher­
itance had been removed, Attorney Pyke drafted an
amendment restoring Plaintiffs inheritance, which was
subsequently signed by Robert (the “Second Amend­
ment”). Doc. 3 at 10-11. However, following Robert’s
death, David refused to distribute to Plaintiff the sum
she inherited. Doc. 3 at 11.
Consequently, Plaintiff and her nephew, Justin
Kam, who was also dissatisfied with his inheritance
under the Amended Trust, filed a will contest in Dallas
Probate Court No. 3, seeking to void the Amended
Trust and uphold the Original Trust (the “First Will
Contest”). Doc. 3 at 11. The case was assigned to Judge
1 For clarity, the Court refers to individuals with the sur­
name “Kam” by their first name.

App. 11
Michael Miller and subsequently transferred to Judge
John Peyton for trial in July 2013, during which Rob­
ert’s testamentary capacity at the time he executed
the Amended Trust was contested. Doc. 3 at 11-13.
Judge Peyton found, inter alia, that (1) Plaintiff and
Justin failed to meet their burden of proof on all
counts, (2) the Original Trust was unenforceable, and
(3) the contest was maintained in bad faith and with­
out probable cause. Doc. 3 at 48-49. Thus, pursuant to
the Amended Trust’s “no contest” provision, Judge Pey­
ton found that Plaintiff and Justin revoked all benefits
to which they would have been entitled under the
terms of the Amended Trust and Second Amendment.
Doc. 3 at 49. Judge Peyton also ordered Plaintiff and
Justin to pay attorneys’ fees and litigation expenses to­
taling $226,242.88. Doc. 3 at 49-51. Judge Peyton’s rul­
ing was affirmed on rehearing and in November 2015,
Judge Margaret Jones Johnson denied Plaintiff’s bill
of review.2 Doc. 3 at 14-16. The Fifth Court of Appeals
affirmed Judge Johnson’s denial. Doc. 3 at 16; see In re
Estate of Kam, No. 05-16-00126-CV, 2016 WL 7473905
(Tex. App. Dallas 2016, pet. denied). Finally, in March
2017, the Supreme Court of Texas denied Plaintiff’s
petition for review. Doc. 3 at 16.
B. Litigation Regarding Charles Kam’s Estate
Plaintiff alleges that in April 2012, during the pen­
dency of the First Will Contest, Charles amended his
will to remove David as an heir. Doc. 3 at 18. After
2 Justin did not join in Plaintiff’s appeal. Doc. 3 at 15, 43.

App. 12
Charles died in August 2012, Plaintiff filed the
amended will for probate. Doc. 3 at 18-19. Thereafter,
David, represented by Attorney Pyke, contested the
will (the “Second Will Contest”)- Doc. 3 at 19. Plaintiff
alleges that David did so “to destroy the entire amount
of the Estate” through costly litigation. Doc. 3 at 20. In
September 2013, trial was held in Dallas Probate
Court No. 2 before Judge Chris Wilmouth, who denied
Plaintiff’s application for probate. Doc. 3 at 20-21. In
February 2016, the Eighth Court of Appeals reversed
Judge Wilmouth’s ruling, admitted Charles’ amended
will to probate, and awarded Plaintiff costs of the ap­
peal. Doc. 3 at 21-22; see Matter of Kam, 484 S.W.3d
642 (Tex. App. El Paso 2016, pet. denied).
C. The Instant Lawsuit
In February 2018, Plaintiff filed this lawsuit in
which she asserts violations of her Fourteenth Amend­
ment right to due process because the state judges and
justices involved in the Probate Proceedings allegedly
denied her the right to a fair trial. Specifically, Plaintiff
challenges the validity of the judgment entered in the
First Will Contest, arguing: (1) Robert lacked testa­
mentary capacity to execute the Amended Trust, Doc.
3 at 24-27; (2) Attorney Pyke relied on forged evidence
at trial, Doc. 3 at 28-29; (3) Judge Peyton lacked au­
thority to preside over the trial, Doc. 3 at 30-33; and
(4) Judge Peyton improperly denied Plaintiff the right
to question a witness during the rehearing, Doc. 3 at
34-36. Plaintiff also contends she is entitled to the
$10,000.00 she inherited from Robert, and that Judge

App. 13
Peyton’s order that she pay over $200,000.00 in litiga­
tion expenses and court costs is a baseless and “mali­
cious penalty.” Doc. 3 at 37-42. As relief, Plaintiff
requests that: (1) Defendants grant her “a Fair Trial,
with a Jury, so [she] may have the opportunity to have
the Malicious Judgment removed,” (2) she “receive
[her] assigned inheritance,” and (3) she be fully reim­
bursed for all legal expenses and court costs incurred
to date. Doc. 3 at 46.
The County and State filed motions to dismiss
Plaintiff’s Original Complaint on March 24, 2018 and
April 6, 2018, respectively. Doc. 24; Doc. 29. Plaintiff
responded to each. Doc. 30; Doc. 31. Only the County
filed a reply.3 Doc. 32.
In its motion to dismiss, the County argues, inter
alia, that the Rooker-Feldman doctrine4 divests this
Court of jurisdiction to hear Plaintiff’s claims. Doc. 29
at 8-10. Upon review, the County’s argument is wellfounded and entirely disposes of Plaintiff’s claims. As
such, the Court need not reach the other arguments
raised by the County or the State of Texas’ motions to
dismiss.
3 Plaintiff filed without leave a “Second Response” to the
County’s reply, which the Court construes as an improperly filed
sur-reply. Doc. 33; see N.D. Tex. L. Civ. R. 56.7 (stating that surreplies may not be filed unless the Court has granted leave to do
so). Because Plaintiff did not seek or obtain leave to file her surreply, the Court will not consider it.
4 The doctrine takes its name from two Supreme Court deci­
sions: D.C. Court ofAppeals v. Feldman, 460 U.S. 462 (1983), and
Rooker v. Fidelity Tr. Co., 263 U.S. 413 (1923).

App. 14
II.

APPLICABLE LAW

A court must dismiss a case for lack of subject mat­
ter jurisdiction under Rule 12(b)(1) of the Federal
Rules of Civil Procedure if it lacks the statutory or con­
stitutional power to adjudicate the case. Home Build­
ers Ass’n of Miss., Inc. v. City of Madison, Miss., 143
F.3d 1006,1010 (5th Cir. 1998). As the Court of Appeals
for the Fifth Circuit has succinctly stated:
The Supreme Court has definitively estab­
lished, in what has become known as the
Rooker-Feldman doctrine, that “federal dis­
trict courts, as courts of original jurisdiction,
lack appellate jurisdiction to review, modify, or
nullify final orders of state courts.” “If a state
trial court errs the judgment is not void, it is
to be reviewed and corrected by the appropri­
ate state appellate court. Thereafter, recourse
at the federal level is limited solely to an ap­
plication for a writ of certiorari to the United
States Supreme Court.”
Weekly v. Morrow, 204 F.3d 613, 615 (5th Cir. 2000)
(quoting Liedtke v. State Bar of Tex., 18 F.3d 315, 317
(5th Cir. 1994)). Additionally, the Rooker-Feldman “ju­
risdictional bar is not limited to actions in federal court
that explicitly seek review of a state court decision, but
also extends to those ‘in which the constitutional
claims presented . . . are inextricably intertwined with
the state court’s grant or denial of relief.’ ” Jordaan v.
Hall, 275 F. Supp. 2d 778, 788 (N.D. Tex. 2003) (Fish,
C.J.) (quoting Hale v. Harney, 786 F.2d 688, 691 (5th
Cir. 1986)). Claims are inextricably intertwined with a

App. 15
state court’s judgment when “the District Court is in
essence being called upon to review the state court de­
cision.” Feldman, 460 U.S. at 482 n.16.
III. ANALYSIS
Plaintiff’s claims stem from the actions of the
judges and justices involved in the Probate Proceed­
ings and, though cast as constitutional claims, amount
to nothing more than a collateral attack on the judg­
ments entered in the Probate Proceedings, in particu­
lar the First Will Contest. See Jordaan, 275 F. Supp. 2d
at 788-89 (when a federal action “is nothing more than
a thinly veiled attempt to circumvent the state appel­
late process and to collaterally attack - in the guise of
a federal civil rights action - the validity of a state
court [judgment] and other related orders,” lower fed­
eral courts lack subject matter jurisdiction over such
action). Plaintiffs insistence that Rooker-Feldman does
not apply because she is “not asking to relitigate [sic]
[her] Case” is unavailing. Doc. 31 at 13. As mentioned
above, Rooker-Feldman not only bars explicit efforts to
review state court rulings, but also claims that are in­
extricably intertwined with those rulings. Jordaan,
275 F. Supp. 2d at 788. In the instant case, Plaintiff’s
federal constitutional claims are premised on accusa­
tions of impropriety on the part of the judges and jus­
tices involved in the Probate Proceedings, and are thus
inextricably intertwined with those judgments. See
Turner v. Cade, 354 F. App’x 108,110-11 (5th Cir. 2009)
(per curiam) (holding that plaintiff’s claims premised
on the allegation that a state court judge conspired and

App. 16
colluded with defendants to deprive her of her consti­
tutional, civil, and property rights were inextricably
intertwined with the state court judgment she com­
plained of); Phinizy v. State of Ala., 847 F.2d 282, 284
(5th Cir. 1988) (plaintiffs claim that the probate
court’s conduct denied her due process was “obviously”
inextricably intertwined with the probate court’s judg­
ment in the state proceeding).
Such intertwining is made all the more apparent
by the relief that Plaintiff seeks in this case, to-wit:
(1) a retrial of the First Will Contest to remove the
“malicious judgment” entered against her; (2) her
$10,000.00 inheritance; and (3) reimbursement of all
litigation expenses incurred thus far. Doc. 3 at 46. To
grant this relief, the Court would have to reverse the
judgment entered in the First Will Contest. See Magor
v. GMAC Mortg, L.L.C., 456 F. App’x 334, 336 (5th Cir.
2011) (per curiam) (finding plaintiffs claims were
inextricably intertwined with state court judgment
where reversal of the state court judgment would be a
necessary part of the relief requested in the federal
action); see also Wallace v. Hernandez, No. A-14-CV691-LY, 2015 WL 1020720, at *2 (W.D. Tex. Mar. 9,
2015) (finding plaintiffs’ claims were barred by RookerFeldman where the “essential relief” they sought was
reversal of probate court’s rulings against them),
adopted by 2015 WL 12751504 (W.D. Tex. Apr. 9,2015),
aff’d 631 F. App’x 257 (5th Cir. 2016) (per curiam). Con­
sequently, Plaintiff’s only recourse is application for
writ of certiorari to the United States Supreme Court.
Weekly, 204 F.3d at 615. As such, Rooker-Feldman

App. 17
divests this Court of subject-matter jurisdiction and
Plaintiff’s claims should be dismissed without preju­
dice.
IV.

LEAVE TO AMEND

Ordinarily, a pro se litigant should be granted
leave to amend her complaint prior to dismissal. Brew­
ster v. Dretke, 587 F.3d 764, 767-68 (5th Cir. 2009) (per
curiam). However, leave need not be granted if the
court determines that the plaintiff has already pleaded
her best case or if the proposed amendment would be
futile. Id.; Stripling v. Jordan Prod. Co., L.L.C., 234
F.3d 863, 872-73 (5th Cir. 2000). While Court has not
previously granted Plaintiff leave to amend, she has
nonetheless done so. On May 14, 2018, after briefing on
the motions to dismiss was complete, Plaintiff filed an
Amended Complaint adding Judge Peyton as a defend­
ant.5 See Doc. 34. See Doc. 34. The claims that Plaintiff
asserts therein are essentially identical to the claims
she asserted in her Original Complaint and predicated
5 Because Defendants’ motions to dismiss were filed more
than 21 days before Plaintiff filed her Amended Complaint, Plain­
tiff lacked authority to amend her complaint without Defendants’
consent or the Court’s leave. Fed. R. Civ. P. 15(a)(2). Plaintiff ob­
tained neither. Even if the Court liberally construes Plaintiffs
Amended Complaint as a motion for leave to amend, see e.g., Jm
cuzzi. Inc, v. Franklin Elec. Co.. Inc.. No. 3:07-CV-1090-D. 2008
WL 2185209. at *4 (N.D. Tex. Mav 27. 2008) (Fitzwater, C.J.), it
has no merit for the reasons discussed infra - the Court lacks ju­
risdiction to hear all the claims pled therein. See Union Planters
Nat’l Leasing. Inc, v. Woods. 687 F.2d 117. 121 (5th Cir. 1982)
(instructing courts to consider, inter alia, “futility of amendment”
when deciding whether to grant leave to amend).

App. 18
on the same factual allegations, namely, her challenge
to the validity of the First Will Content [sic] and the re­
sulting judgment entered by Judge Peyton. See Doc. 34
at 1-10. Thus, for the reasons explained above, the
amended claims also are inextricably intertwined with
a prior state court judgment and accordingly barred by
Rooker-Feldman. Jordaan, 275 F. Supp. 2d at 788. In
light of the futility of Plaintiffs proposed amendments,
the Court concludes that she has simply pleaded her
best case and any additional grant of leave to amend
would cause needless delay. Brewster, 587 F.3d at 76768; Stripling, 234 F.3d at 872-73.
V.

CONCLUSION

For the foregoing reasons, Dallas County’s Motion
to Dismiss, Doc. 29, should be GRANTED IN PART
and Plaintiffs claims DISMISSED WITHOUT PREJ­
UDICE. Because no other claims will remain, State of
Texas’ Motion to Dismiss, Doc. 24, should be DENIED
AS MOOT.
SO RECOMMENDED on May 29, 2018.
/s/ Renee H. Toliver
RENEE HARRIS TOLIVER
UNITED STATES
MAGISTRATE JUDGE

App. 19
INSTRUCTIONS FOR SERVICE AND
NOTICE OF RIGHT TO APPEAL/OB JECT
A copy of this report and recommendation shall be
served on all parties in the manner provided by law.
Any party who objects to any part of this report and
recommendation must file specific written objections
within 14 days after being served with a copy. See 28
U.S.C. § 636(b)(1); Fed. R. Civ. P. 72(b). Any objection
must identify the specific finding or recommendation
to which objection is made, state the basis for the ob­
jection, and specify the place in the magistrate judge’s
report and recommendation where the disputed deter­
mination is found. An objection that merely incorpo­
rates by reference or refers to the briefing before the
magistrate judge is not specific. Failure to file specific
written objections will bar the aggrieved party from
appealing the factual findings and legal conclusions of
the magistrate judge that are accepted or adopted by
the district court, except upon grounds of plain error.
See Douglass v. United Services Automobile Ass’n, 79
F.3d 1415, 1417 (5th Cir. 1996), modified by statute, 28
U.S.C. § 636(b)(1) (extending the time to file objections
from 10 to 14 days).
/s/ Renee H. Toliver
RENEE HARRIS TOLIVER
UNITED STATES
MAGISTRATE JUDGE

App. 20
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 18-10735
CAROL M. RAM,
Plaintiff - Appellant
v.
DALLAS COUNTY; STATE OF TEXAS,
Defendants - Appellees
Appeal from the United States District Court
for the Northern District of Texas
ON PETITION FOR REHEARING
(Filed Apr. 12, 2019)
Before STEWART, Chief Judge, and OWEN and OLD­
HAM, Circuit Judges.
PER CURIAM:
IT IS ORDERED that the petition for rehearing is
[DENIED].
ENTERED FOR THE COURT
/s/ Carl E. Stewart
UNITED STATES
CIRCUIT JUDGE

